Supreme Court, U.S.
FILED

JUL 0 7 2020
No.

30-21

OFFICE OF THE CLERK

IN THE
SUPREME COURT of the UNITED STATES

BILLY DUANE CARD FLESHNER,
Petitioner,
y.

MATTHEW TIEDT, et al.,
Respondents.
On Petition For Writ Of Certiorari
To The United States Court of Appeals
For The Eighth Circuit

PETITION FOR WRIT OF CERTIORARI

Billy D. Fleshner
P.O. Box 84137
Sioux Falls, SD 57118
Telephone: 605-376*5230
Pro se Petitioner

a
QUESTIONS PRESENTED

The following questions are presented by the
petitioner-

Can Peace Officers use excessive force when
1.
the force is objectively unreasonable and it violates well
established case law and department policies?
Can the District Court contradict evidence
2.
recorded on video in its statement of facts?
3.
Can the district court err by not being
impartial and unbiased?
4.
Are federal judges helping to make police
unaccountable for their actions?

l

PARTIES TO THE PROCEEDINGS
The Petitioner in this case is Billy D. Fleshner, an
individual. Petitioner was the Plaintiff-Appellant in the
court below.
Respondents Kenneth W. Wiley, an individual,
Matthew P. Tiedt and Kyle J. Shores, in their Individual
and Official Capacity as Deputies of Bremer County, Connie
Sents, a dispatcher of Bremer County, Dan Pickett, in his
Official Capacity as Sheriff of Bremer County, Daniel P.
Schaeffer and James E. Dickinson, in their Individual and
Official Capacity as State Troopers of Iowa, Bremer County,
Iowa, Judge Linda R. Reade and Judge Charles J. Williams
were the defendants and appellees below.

11

ij

TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED

I

PARTIES TO THE PROCEEDINGS

II

TABLE OF AUTHORITIES

V

OPINIONS BELOW

1

JURISDICTIONAL STATEMENT

1

CONSTITUTIONAL PROVISIONS INVOLVED
STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

1-2
3

3-14
14-32

1. PEACE OFFICERS CANNOT USE EXCESSIVE
FORCE WHEN THE FORCE IS OBJECTIVELY
UNREASONABLE AND IT VIOLATES DEPARTMENT
POLICIES
14-17
2. THE DISTRICT COURT ERRED IN OVERRULING
THE EIGHTH CIRCUIT COURT OF APPEALS........ 17-19
a DISTRICT COURTS ARE NOT ALLOWED TO
CONTRIDICT OBVIOUS EVIDENCE RECORDED ON
VIDEO IN ITS STATEMENT OF FACTS
19-23
4. THE DISTRICT COURT ERRED IN REMOVING THE
DETERMINATION OF FACTS FROM A JURY
23-24
in

c

5. THE DISTRICT COURT ERRED IN HOLDING THAT
THERE WERE NO FOURTH AMENDMENT
24-28
VIOLATIONS
6. THE DISTRICT COURT ERRED IN DENYING
PETITIONER TRIAL BY JURY ON ALL REMAINING
28-31
ISSUES
7. THE DISTRICT COURT ERRED BY NOT BEING
IMPARTIAL AND UNBIASED...................................... 31-32
32-34

CONCLUSION
APPENDIX A
Order of March 28, 2019

la

APPENDIX B
Per Curiam of March 16, 2018

75a

APPENDIX C
Per Curiam of April 10, 2020

79a

IV

TABLE OF AUTHORITIES
Cases

Page

Agostini v. Felton, 521 U.S. 203, 236, 117 S.Ct.
1997, 138 L.Ed.2d 391 (1997)..............................

18

Anderson v. Sixth Judicial District Court,
521 F.2d 420 (8th Cir. 1975)..........................

21

Bell v. Wolfish, 441 U.S. 520, 559 (1979)

27

Bivens v. Six Unknown Named Agents of Fed. Bureau of
Narcotics, 403 U.S. 388, 410, 91 S.Ct. 1999, 29 L.Ed.2d 619
(1971)
19
Bracy v. Gramley, 81 F.3d 684, 703 (7th Cir. 1996) (dissent),
reversed, 520 U.S. 899, 117 S.Ct. 1793, 138 L.Ed.2nd 97
(1997)
30
Chambers v. Pennycook, 641 F.3d 898, 904 (8th Cir.
2011)..................................................................................

16

Cohens v. Virginia, 19 U.S. 264, 290 (6 Wheat. 264, 399400) (1821)............ ................................................................. 15
Clegg v. Hardware Mutual Casualty Co.,
264 F.2d 152, 154 (5th Cir. 1959)....
Dean v. Searcey, 893 F. 3d 504, 510-511 (8th Cir.
6/11/2018)................................................................

28-30

19

Gallick v. Baltimore & Ohio R. Co., 372 U.S. 108, 127, 83
S.Ct. 659, 9 L.Ed.2d 618 (1963)
24
Geitz v. Overall, 137 Fed. Appx. 927 (8th Cir. 2005)
v

22

Graham v. Connor, 490 U.S. 386, 396, 109 S.Ct. 1865, 104
27
L.Ed.2d 443 (1989)
32

Hook v.McDade, 89 F.3d350, 355 (7th Cir.1996)

Houghton v. McDonnellDouglas Corporation, 627 F.2d858,
17
864 (8th Cir.1980)
In re Apex Oil Co., 265 BR 144, 153-154 (8th Cir. BAP
2001).........................................................................................

17

In re Raynor, 617 F. 3d 1065, 1068 (8th Cir. 2010)

18

Little Earth ofthe United Tribes, Inc. v. United States
Dep’t ofHous.& Urban Dev., 807 F.2d 1433, 1438
(8th Cir. 1986).........................................................................

18

McClendon v. Story County Sheriff’s Office,
403 F.3d 510, 515 (8th Cir. 2005)...........

22

Meehan v. Thompson, 763 F. 3d 936, 946-947
(8th Cir. 2014)..........................................................

16-17

Nickens v. White, 536 F.2d802, 803 (8th Cir. 1976)

21

Nobelpharma Ab USA v. Innovations Inc.,
129 F.3d 1463, 1477 (Fed. Cir. 1997)...........

21

Parker v. Connors Steel Co., 855 F.2d 1510, 1524
(11th Cir. 1988)..............................................................

31

Saucier v.Katz, 533 U. S. 194,201 (2001)

14

Scott v. Harris, 550 U.S. 372, Syllabus, 127 S.Ct. 1769, 167
14
L.Ed.2d 686 (2007)

vi

State v. Bowie, 2002-Ohicr3553
(Ohio App. Dist. 7/02/2002)........

24-25

Terry v. Ohio, 392 U. S. 1 (1968)

27

United States v. Bartsh, 69 F.3d 864, 866
(8th Cir.1995)...................................................

18

United States v. Mills, 138 F.3d 928, 938
(11th Cir. 1998)...............................................

32

United States v. Place, 462 U.S. 696, 703 (1983)

27

United States v. Smith, 210 F.3d 760, 764
(7th Cir.2000)....................................................

31

United States v. White Horse, 807 F.2d 1426, 1430

(8th Cir. 1986)......................................................

24

Wayne R. LaFave, Search and Seizure
§ 7.3, at 555, 559 (1978)...........................

27

Statutes. Rules. Policies and Constitutional Provisions
First Amendment, U.S. Constitution

1

Fourth Amendment, U.S. Constitution... 1, 12, 15, 16, 24,26
Fifth Amendment, U.S. Constitution
Vll

2

t.

Seventh Amendment, U.S. Constitution

2, 28

Fourteenth Amendment, U.S. Constitution

2

28 U.S.C. § 1254(1)

1
27-28

28 U.S.C. § 455

3

42 U.S.C. § 1983

Bremer County Sheriffs Office Law Enforcement Policy
number- 4.08........................................................................ 10
Iowa Administrative Code (“IAC”) for Public Safety [661]
Ch. 6....................................................................................... 11
Other Authorities
Anthony D’Amato, The Ultimate Injustice'• When a Court
Misstates the Facts, Cardozo Law Review, Vol. 11, 1313,
19-20
1345-1346 (1990)
Bennett L. Gershman, Now You See It, Now You Don’tDepublication and nonpublication ofopinions raise motive
questions, New York State Bar Association Journal, October
21
2001, Vol. 73, No. 8

Vlll.

PETITION FOR WRIT OF CERTIORARI

Billy D. Fleshner, on behalf of himself, hereby
petitions for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Eighth Circuit,
filed on April 10th, 2020. There was no good-faith
determination of the law in petitioner’s cases in either the
district court or the Eighth Circuit Court of Appeals.
OPINIONS BELOW
The District Court’s final judgment of April 10, 2020,
is reproduced as Pet. App. 79a and its March 19, 2018,
judgment is reproduced as Pet. App. 75a.
JURISDICTIONAL STATEMENT
The Court of Appeals’ final judgment was entered on
April 10, 2020. This Court’s jurisdiction is invoked
pursuant to 28 U.S.C. § 1254(l).
CONSTITUTIONAL PROVISIONS INVOLVED
This case involves the First, Fourth, Fifth, Seventh
and Fourteenth Amendments to the United States
Constitution.
The First Amendment, U.S. Constitution, provides:
Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the press;
or the right of the people peaceably to assemble, and to
petition the government for a redress of grievances.
The Fourth Amendment, U.S. Constitution, provides:
That "[t]he right of the people to be secure in their
persons, houses, papers, and effects, against unreasonable
1

searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, supported
by Oath or affirmation, and particularly describing the
place to be searched, and the persons or things to be seized.
The Fifth Amendment, U.S. Constitution, provides*
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a grand jury, except in cases arising in the
land or naval forces, or in the militia, when in actual
service in time of war or public danger,' nor shall any
person be subject for the same offense to be twice put in
jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use,
without just compensation.
The Seventh Amendment, U.S. Constitution,
provides*
In suits at common law, where the value in
controversy shall exceed twenty dollars, the right of trial by
jury shall be preserved, and no fact tried by a jury, shall be
otherwise reexamined in any court of the United States,
than according to the rules of the common law.
The Fourteenth Amendment, U.S. Constitution,
provides*
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state wherein they
reside. No state shall make or enforce any law which shall
abridge the United States; nor shall any state deprive any
person of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the equal
protection of the laws.

2

O

STATUTORY PROVISIONS INVOLVED
This case involves Title 42 U.S.C. § 1983.
Title 42 U.S.C. § 1983 providesEvery person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or causes to
be subject, any citizen of the United States or other person
within the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the party
injured in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive relief was
unavailable. For the purpose of this section, and Act of
Congress applicable exclusively to the District of Columbia
shall be considered to be a statute of the District of
Columbia.
STATEMENT OF THE CASE
Factual Background. The facts germane to this
action, as known by Petitioner Billy Duane Card Fleshner
(“Fleshner”) and corroborated by the Orders filed by the
Northern District Court of Iowa, statements given by the
Respondents Deputy Matthew Tiedt (“Deputy Tiedt”),
Deputy Kyle Shores (“Deputy Shores”), Iowa State Patrol
Officer Dan Schaefer (“Trooper Schaefer”), Iowa State
Patrol Officer James E. Dickinson (“Trooper Dickenson”),
and recording devices of Deputy Tiedt and Trooper
Schaefer, are as follows.
The video evidence shows that the grounds to initiate
the stop against Fleshner on Christmas Eve, December 24,
2014, were fabricated to make it sound as if Fleshner was
intoxicated, not for any traffic statute violations he
supposedly committed. This is clear to anyone with common

3

sense as Fleshner was never tested for being drunk and it
was admitted by the officers involved in the traffic stop that
Fleshner was completely sober during the time of his
arrest.
In the Order of 03/28/2019 (D.E. #96), App., p. 19a,
the district court stated in the “a. Window Tint” that “Tiedt
did not violate plaintiff s right to be free from unreasonable
seizures because Tiedt had, at a minimum, reasonable
suspicion to initiate the traffic stop based on plaintiffs
tinted windows.”.
Fleshner was stopped based on hearsay. Tiedt
admitted under oath during a deposition held on September
14, 2015 that he stopped Fleshner because- “We received a
complaint on your driving, from an independent third
party.” (Deposition of Matthew Tiedt, 9/14/2015, p. 13, lines
12-15)
Deputy Tiedt never declared that a possible window
tint violation was the bases of initiating the stop of
Fleshner. The district court was attempting to rewrite the
facts of the case in an attempt to justify the dismissal of the
improper stop of Fleshner on December 24, 2014.
In the Order of 03/28/2019 (D.E. #96), App., p. 5a, the
district court stated: Defendants further contend that none
of the law enforcement personnel who ultimately responded
to the scene were able to see into plaintiffs Jeep due to the
Jeep’s windows being tinted. (Docs. 74-1, at ^1 1\ 76-1, at ^
6).

Deputy Tiedt mentioned three different times he
COULD see into Fleshner’s Jeep in his incident report
dated December 24, 2014. Deputy Shore's and Trooper
Schaefer’s incident reports dated December 24, 2014, also
makes admissions of seeing into the vehicle.
The district court and the Eighth Circuit Court failed

4

to address this blatant discrepancy of the facts. Even worse,
the district court used these false claims to justify their
rulings.
The United States Court of Appeals for the Eighth
Circuit ruled that Fleshner adequately stated a claim that
he was subjected to an objectively unreasonable traffic stop
which was not supported by probable cause or reasonable
V
suspicion. See Order (D.E. #56), App., p. 76a-78a.
In regard to the excessive use of force the district
court initially admitted that “Fleshner’s assertions are
sufficient to state a claim for excessive force” and the first
Motion for Summary judgment was denied. Order of
03/04/16 (D.E. #26).
Fleshner’s Excessive Use of Force claim was
dismissed in the Order of 03/28/2019 (D.E. #96) App., p. la,
in which the district court clearly determined the facts of
the case to favor the law enforcement officers involved
despite the issue of facts in dispute and the previous per
curiam order. See Order of 03/28/2019 (D.E. #96), App., p.
43a-48a.
The First Amended Complaint (D.E. 15) explains the
facts in detail of the attack by Trooper Schaefer and the
video evidence from Trooper Schaefer’s dash cam (18-29-3018-34*22) proves the accuracy of the facts.
From the time Trooper Schaefer demanded Fleshner
get on the ground to the time Trooper Schaefer grabbed
Fleshner by the head and neck and struck him in the groin
was a total of five (5) seconds (Trooper Schaefer’s dash cam,
18:33:37-18:33:42)

5

r *♦

a (L

i
*t>

1:1
N

\
» ■<

0 - ) i

Trooper Schaefer grabbed Fleshner by the head and
neck, and started winding up for the knee strike. As soon as
Deputy Tiedt used his right leg to sweep Fleshner’s left leg,
which spread Fleshner’s legs open, Trooper Schaefer drove
his knee into Fleshner’s groin.
It’s clear this strike to the groin was intentionally
executed by Trooper Schaefer. (Trooper Schaefer’s dash
cam, 18:33:37-18:33:42)
r* -

■ *u.

>

’Lj

/Jits

V.

«
V

m

.A

V,

msmrz&isi-r*.'. •

6

The video evidence shows Trooper Schaefer’s knee is
waist high and his leg is on the inside of Fleshner’s right
leg. Trooper Schaefer was looking in the direction of the
strike he employed against Fleshner.

The district court was again attempting to twist the
facts in favor of the defendants by claiming- (l) Plaintiff
turned back toward the interior of the Jeep, putting his
back to the officers (2) Plaintiff started to pull away from
Schaefer and (3) Plaintiff continued to straighten his legs
and pull away from Schaefer while being told repeatedly to
get on the ground. (D.E. #96), App., p. 44a*45a.
The video does not show Fleshner resisting once he
exited as requested and Fleshner was never charged with
resisting arrest.

7

During the Iowa state trial1 of the gun charges, all
the law enforcement officers admitted that Fleshner never
made threats, never attempted To escape, never attempted
to harm any of the officers and was never physically armed
with a weapon.
Shown in the video evidence on Trooper Schaefer’s
dash cam is Trooper Dickinson with a large flashlight in his
right hand. Fleshner believes the flashlight is what struck
him three times causing injuries to his right thigh.
Plaintiff also claims that Schaefer struck plaintiff in the
right thigh with a flashlight or other object during his
arrest. (Docs. 15, at U 100, 83-2, at 8).
Order of 03/28/2019 (D.E. #96), App., p. 23A.
Fleshner’s First Amended Complaint admits
Dickinson struck him while on the ground, not Schaefer.
(D.E. #15 H 100).
The district court further protects the officers by
claiming Trooper Schaefer “pressed” his knee into
Fleshner’s back while Fleshner was on the ground. Trooper
Schaefer twice used his body weight to drop his knee into
Fleshner's back. See Order of 03/28/2019 (D.E. #96), App.,
p. 47a.
The second knee drop by Trooper Schaefer drove into
Fleshner’s back made Fleshner’s head bounce off the
concrete, which Fleshner vividly remembers.
Details of this incident are also stated in the First
Amended Complaint, (D.E. #15 UK 96-104).
The district court failed to address the claims in

Fleshner was wrongfully charged and was subsequently
1
acquitted

8

Trooper Schaefer’s, Deputy Shores and Deputy Tiedt’s
incident reports claiming Fleshner had BOTH hands
pinned under his body/belly and was resisting arrest, but
did admit Tiedt maintained his hold on Fleshner’s Left
wrist. See Order of 03/28/2019 (D.E. #96), App., p. 45a-46a.
From the time the assault by the law enforcement
officers began to the time Fleshner was handcuffed, Deputy
Tiedt had Fleshner by the left wrist the entire time as
shown in the video evidence.
imm

ISS'srJ
*T*’

w S B5i*r~'*eSag
■
s.

9

V

E33*

Gr^
□

12/24/2014 18

pi

A L

1
H

»■

V
■'.i

V

r

,!4 .,*_§£

&a

£3

Trooper Schaefer and Deputy Tiedt both claim in
their incident reports that they had to force Fleshner's
hands/arms from under Fleshner's body. This is not
supported by their video evidence.
The district court ignored obvious conflicting
statements made by the officers directly supported by the
video evidence.
The Bremer County Sheriff’s Office law enforcement
policies number 4.08 is very clear on how to initiate and
affect an arrest. Under the “Arrest Procedures for NonCompliant individuals” section two (2).
This policy is also very clear on the responsibility of
the arresting officer under “Officer Care & Responsibility-”
Not only has the district court failed to address
false claims made by the officers in their incident reports
and pleadings, the court has also made false claims in its
summary judgment to further justify its rulings. See (D.E.
#96), App., p. 29a-30a.
Petitioner did not plead guilty to all charges as
10

claimed by the district court. Fleshlier should have never
been stopped in the first place and in turn should have
never been charged with any violations.
Once plaintiff was on his feet, he pulled away from
Tiedt and Schaefer and used his shoulder to close the
locked door of his Jeep. (Schaefer Video, at 18-34- 48; Docs.
15, at H 107; 83-2, at 12). See (D.E. #96), App., p. 48a.
The district courts claim is inaccurate and rewrote
the facts of what actually transpired. None of the officers
had ahold of Fleshner during this time.
Regarding the search and seizure claim the process
and procedure for impounding vehicles in the State of Iowa
is clear under the applicable sections of Iowa
Administrative Code (“IAC”) for Public Safety [661] Ch. 6.
Clearly none of these elements were fulfilled as
Fleshner’s vehicle was in the parking lot of a gas station
and therefore could not constitute a traffic hazard.
While in the patrol car, Fleshner had informed
Deputy Tiedt that he could have someone come and get his
vehicle. Deputy Tiedt denied Fleshner that option.
Before the search Fleshner was under arrest for
interference of official acts. There was no evidence, which
could have been used in an administrative or judicial
proceeding, to prove this charge against Fleshner.
Fleshner was available and capable to give or not
give consent to such impoundment. Fleshner clearly
refused an inventory and impoundment as documented on
the video evidence on Trooper Schaefer’s dash cam
(18:38:33*18'38*40). See the First Amended Complaint (D.E.
#15HH 115-116).
The “inventory search” was conducted in bad faith for
the sole purpose of investigation and general rummaging in
11

order to illegally attempt to discover incriminating evidence
(of which there was none).
One of many clear examples of a Fourth Amendment
violation is when papers inside Fleshner’s vehicle were
confiscated to be copied by the sheriff’s department before
being returned to Fleshner as shown on Trooper Schaefer’s
dash cam (18:48:20-18:48:35). See (D.E. #15 U 121).
No law, process or procedure allows legal property to
be seized by officers during an inventory search without a
warrant.
One example of the law enforcement officers failing
to inventory Fleshner’s property according to “standardized
police procedures” was in the First Amended Complaint,
(D.E. #15 U 146), and on Trooper Schaefer’s dash cam
(19:30:30-19:31:05) where Trooper Schaefer admitted he
was NOT going to open or “take it all apart” and claimed
the item to be a raft when, in fact, it contained rain gear.
During trial held on May 6th and 7th, 2019, all officers
testified that this item was not properly inventoried by any
of the officers during the inventory search.
The district court denied Fleshner a fair trial after
ruling on the Respondents motions for summary judgment.
On November 20th, 2018, Fleshner mailed his
opposition and response to motions for summary judgment
(D.E. #85 & 86) through the USPS and paid for early
morning next day delivery. Fleshner was granted an
extension with his response due by November 21st, 2018.
The district court did not file this response until November
26th, 2018, making it look as-if Fleshner had filed late even
though they had received the response on November 21st,
2018. The certificate of service was dated November 20th,
2018.
The Bremer County Appellee-Defendants filed a

12

motion to strike (D.E. 87) claiming Petitioner failed to
respond in a timely manner and on January 18th, 2019. The
district court granted in part to strike Petitioners
opposition to motions for summary judgment and his
response to motion for summary judgment (D.E. #85 & 86).
The district court clearly did not want the law of the
case doctrine on the record that informed the district court
that it has a duty to follow the issues in this case decided
on appeal.
The FPTC was held on April 4th, 2019. Fleshner was
informed that many of his exhibits and issues raised in his
Amended Complaint would NOT be allowed at the jury trial
after the district court’s ruling on the Respondent’s motions
for summary judgment further preventing Fleshner from
presenting all the facts to a jury.
During trial on May 6th, 2019, the district court
decided to allow Respondents to present exhibits filed late
in their third amended exhibit fist but refused Petitioner
permission to present his additional exhibits filed in his
second amended exhibit list. This further shows the
continual bias of the district court and presiding judge
during trial.
Also, during trial the district court decided to remove
punitive damages leaving only nominal damages of one
dollar if the jury were to rule in favor of the Petitioner.
Fleshner’s observations of what transpired leading
up to trial and once trial was concluded, it was clear that he
was bamboozled, and in a very clever way. Trooper Schaefer
took the blame for the remaining issue against Bremer
County Respondents after the jury was informed that
Trooper Schaefer was granted immunity and any testimony
he gives could not be used against him in the trial.
Because of the decisions and rulings of the presiding
13

judge, the jury trial was a complete waste of tax payers’
money and a waste of the juries, court staff and everyone
else’s time by holding a mishandled jury trial.
REASON FOR GRANTING THE WRIT
I.Peace Officers cannot use excessive force when the force is
objectively unreasonable and it violates department
policies.
The Respondent’s misconstrue their own citation of
authority.
Held- Because the car chase respondent initiated
posed a substantial and immediate risk of serious
physical injury to others, Scott’s attempt to
terminate the chase by forcing respondent off the
road was reasonable, and Scott is entitled to
summary judgment. Pp. 3-13.
Scott v. Harris, 550 U.S. 372, Syllabus, 127 S.Ct. 1769, 167
L.Ed.2d 686 (2007).
Fleshner posed no risk of injury to anyone.
Qualified immunity requires resolution of a
(a)
“threshold question: Taken in the light most
favorable to the party asserting the injury, do the
facts alleged show the officer’s conduct violated a
constitutional right?”
Saucier v. Katz, 533 U. S. 194, 201. Pp. 3-4.

(b)

The record in this case includes a videotape
capturing the events in question. Where, as here, the
record blatantly contradicts the plaintiff’s version of
events so that no reasonable jury could believe it, a
court should not adopt that version of the facts for
purposes of ruling on a summary judgment motion.
Pp. 5-8.
14

Id
In this case, the video plainly contradicted both the
Respondent’s and the lower court’s version of the facts.
I.
Garner did not establish a magical on/off
switch that triggers rigid preconditions whenever an
officer’s actions constitute “deadly force.” The Court
there simply applied the Fourth Amendment’s
“reasonableness” test to the use of a particular type
of force in a particular situation. That case has scant
applicability to this one, which has vastly different
facts. Whether or not Scott’s actions constituted
“deadly force,” what matters is whether those actions
were reasonable. Pp. 8-10.
Id
“Different facts” in the context of applying precedent
is not a new principle.
It is a maxim not to be disregarded, that general
expressions, in every opinion, are to be taken in
connection with the case in which those expressions
are used. If they go beyond the case, they may be
respected, but ought not to control the judgment in a
subsequent suit when the very point is presented for
decision. The reason of this maxim is obvious. The
question actually before the court is investigated
with care and considered in its full extent. Other
principles which may serve to illustrate it, are
considered in their relation to the case decided, but
their possible bearing on all other cases is seldom
completely investigated.
Cohens v. Virginia, 19 U.S. 264, 290 (6 Wheat. 264, 399400) (1821).
Seven years after Scott, supra, was decided, the
Eighth Circuit addressed the issue more comprehensively.
15

We recognized for the first time in Chambers v.
Pennycook, 641 F.3d 898 (8th Cir.2011), that police
conduct that causes only de minimis injury could
constitute excessive force. We noted, however, that it
had previously “remain[ed] an open question in this
circuit whether an excessive force claim requires some
minimum level of injury.” Id. (quoting Andrews v.
Fuoss, 417 F.3d 813, 818 (8th Cir.2005)).
Chambers was handed down on June 6, 2011, more
than a month after Meehan was arrested. Meehan
thus cannot avail herself of the legal principle
articulated in Chambers. Meehan argues, however,
that the law was clearly established even before
Chambers that de minimis inj ury could give rise to an
excessive force claim. Meehan notes that Chambers
was the result of an en banc rehearing granted in part
because of the petitioner’s assertion that the original
panel’s holding—that de minimis injury could not
support an excessive force claim—conflicted with a
2010 Supreme Court case, Wilkins v. Gaddy, 559 U.S.
34, 130 S.Ct. 1175, 175 L.Ed.2d 995 (2010). Wilkins,
however, dealt with a prisoner’s right to be free from
excessive force under the Eighth Amendment and did
not clearly establish that de minimis injury could
support an excessive force claim under the Fourth
Amendment. Chambers holding was not based on
Wilkins but on an exhaustive study of case law, a
study that no reasonable police officer should have
been expected to conduct. See Davis v. Scherer, 468
U.S. 183, 196, 104 S.Ct. 3012, 82 L.Ed.2d 139 (1984)
(“[Police officers] are subject to a plethora of rules,
‘often so voluminous, ambiguous, and contradictory,
and in such flux that officials can only comply with or
enforce them selectively.’” (quoting Peter H. Schuck,
Suing Governments (1983))). Meehan does not point
to any other specific case enunciating the principle
that de minimising ury can give rise to an excessive

16

force claim, nor can we find one. See La Cross v. City of
Duluth, 713 F.3d 1155, 1159 (8th Cir.2013)
(recognizing that the law on this point became clear
only after Chambers was handed down). Because the
law was not clear before Chambers that police conduct
could constitute excessive force even if it caused only
de minimis injury, Meehan’s excessive force claim must
fail.
Meehan v. Thompson, 763 F. 3d 936, 946*947 (8th Cir.
2014).

n.

The district court erred in overruling the Eighth
Circuit Court of Appeals.
The district court has a duty to follow the issues in
this case decided on appeal by the higher court of appeals.
Clearly, this district court believes that it is not bound by
the Eighth Circuit Court of Appeals earlier ruling.
The law of the case doctrine applied by the Eighth
Circuit, is*
When a case has been decided by this court on appeal
and remanded to the District Court, every question
which was before the court and disposed of by its
decree is finally settled and determined. The District
Court is bound by the decree and must carry it into
execution according to the mandate. It cannot alter it,
examine it except for purposes of execution, or give
any further or other relief or review of it for apparent
error with respect to any question decided on appeal.
Houghton v. McDonnellDouglas Corporation, 627 F.2d858,
864 (8th Cir.1980), citing Thornton v. Carter, 109 F.2d 316,
319*20 (8th Cir. 1940).
In re Apex Oil Co., 265 BR 144, 153*154 (8th Cir. BAP
2001).
17

As an initial concern, we address Myers’s argument
that we should not review this matter because of the
law of the case doctrine. We disagree. “Law of the
case” is a policy of deference under which “a court
should not reopen issues decided in earlier stages of
the same litigation.” Agostini v. Felton, 521 U.S. 203,
236, 117 S.Ct. 1997, 138 L.Ed.2d 391 (1997); see also
Little Earth of the United Tribes, Inc. v. United
States Dep’t ofHous. & Urban Dev., 807 F.2d 1433,
1438 (8th Cir.1986) (“The law of the case doctrine
applies to issues implicitly decided in earlier stages
of the same case.”). The law of the case “prevents the
relitigation of a settled issue in a case and requires
courts to adhere to decisions made in earlier
proceedings in order to ensure uniformity of
decisions, protect the expectations of the parties, and
promote judicial economy.” United States v. Bartsh,
69 F.3d 864, 866 (8th Cir.1995). We have held that
“[w]hen an appellate court remands a case ... all
issues decided by the appellate court become the law
of the case ...” Id.
In re Raynor, 617 F. 3d 1065, 1068 (8th Cir. 2010).
The Eighth Circuit agreed the issues remaining in
the Petitioner’s case should be determined by a Jury.
According to Gage County, we are not bound by our
holding in Dean under the law-of-the-case doctrine
because that decision applied controlling law
incorrectly. As a reminder, Dean held that Nebraska
county sheriffs “made final policy with regard to law
enforcement investigations and arrests.” 807 F.3d at
941. For that reason, we held that it was for the jury
to decide in this case “whether Sheriff DeWitt’s
decisions caused the deprivation of rights at issue by
policies which affirmatively command that it occur.”
Id. at 942 (internal quotation marks omitted).

18

Dean v. Searcey, 893 F. 3d 504, 510-511 (8th Cir. 6/11/2018)
(footnote omitted).
To conclude, we note that there are certain types of
law enforcement conduct that “do more than offend
some fastidious squeamishness or private
sentimentalism about combatting crime” and which
the Constitution forbids. Bochin v. California, 342
U.S. 165, 172, 72 S.Ct. 205, 96 L.Ed. 183 (1952). Over
the course of now four opinions, and our multiple
meticulous reviews of the evidence presented, we
have recognized this case is an example of such
conduct—and a jury has agreed. For this, § 1983
offers a measure of recourse. Indeed, the only
measure of recourse- “[f]or people in [Appellees’]
shoes, it is damages or nothing.”
Bivens v. Six Unknown Named Agents ofFed. Bureau of
Narcotics, 403 U.S. 388, 410, 91 S.Ct. 1999, 29 L.Ed.2d 619
(1971) (Harlan, J., concurring).
Id. at 522.
IH
The district court erred by contradicting obvious
evidence recorded on video in its statement of facts.
The growing trend on the part of unelected officials
(federal judges) to deny litigants meaningful access to the
courts through judicial rewriting of the facts at some point
is going to have to be addressed by the judges themselves or
by Congress.
The problem has not gone unnoticed.
Do judges routinely display a casual attitude
toward the facts of the case? I suggest that practicing
attorneys be asked whether they have had cases
where the judge’s statement of the facts were false.
Every practicing attorney to whom I have asked this
question has responded in the affirmative! some have

19

told me that the practice is, unfortunately, quite
common, and that judicial misrepresentation of the
facts of cases has produced a crisis in their
professional lives. They feel that their work is subject
to the whim of judges who play God with the facts of
a case, changing them to make the case come out the
way the judge desires. Some say that if they had
known that the practice of law would be like this,
they would have gone into a different profession.
Professor Monroe Freedman recently stated in a
speech to the Federal Circuit Judicial ConferenceFrankly, I have had more than enough of
judicial opinions that bear no relationship
whatsoever to the cases that have been filed and
argued before the judges. I am talking about judicial
that
opinions that falsify the facts of the cases
have been argued, judicial opinions that make
disingenuous use or omission of material authorities,
judicial opinions that cover up these things with no
publication and no-citation rules.
Professor Freedman wrote a letter to me in
which he stated that at the luncheon immediately
following his speech, a judge sitting next to him said
(apropos of the passage above quoted), “You don't
know the half of it!”
Apart from these professional concerns, we
should also ask ourselves what kind of a judiciary
system this society has produced where judges can
misstate the facts of a case and then proceed to apply
the law to those fictitious facts. Can any person be
safe in court if this practice is allowed to continue? If
judges can listen to the evidence and then tell a
contrary story, what remains of justice? The vaunted
security we have in a free country and a just legal
system turns to quicksand. Our case may be

20

factually proven, legally required, and morally
compelled, but we can still lose if the judge changes
the facts. And if we complain no matter how loudly
higher courts will not be interested in reviewing a
“factual” controversy, and the legal community, as
well as the general public, will assume that the facts
were those stated by the judge.
Anthony D Amato, The Ultimate Injustice■ When a Court
Misstates the Facts, Cardozo Law Review, vol. 11, 1313,
1345*1346 (1990) (footnotes omitted).
Nor has it gone entirely unnoticed in the published
opinions.
The majority would rewrite the facts to make this an
innocent oversight. The judge and jury found the facts
otherwise. Indeed, as the trial judge, after reviewing
the facts in evidence in this case, stated in his
opinion, “there was a sense of fraud in the air, which
sense the jury later confirmed.”
NobelpharmaAh Usa v. Innovations Inc., 129 F.3d 1463,
1477 (Fed. Cir. 1997).
We are enjoined to view civil right pleadings
liberally. Hainesv. Kemer; 404 U.S. 519, 92 S.Ct. 594,
30 L.Ed.2d 652 (1972); Anderson v. Sixth Judicial
District Court, 521 F.2d420 (8th Cir. 1975). Such
pleadings must nonetheless not be conclusory and
must set forth the claim in a manner which, taking
the pleaded facts as true, states a claim as a matter
of law. See Anderson v. Sixth JudicialDistrict Court,
supra! Ellingburg v. King, 490 F.2d 1270, 1271 (8th
Cir. 1974).
Nickens v. White, 536 F.2d 802, 803 (8th Cir. 1976).
Apparently, this is no longer true, as the
21

district court introduced fictions in the place of facts.
Fleshner suspects the district court rewrote the facts
in order to benefit the Respondents and the Eighth
Circuit Court seems to not mind that they had done
so.
“Qualified immunity is a question of law not a
question of fact. The threshold issue in a qualified
immunity analysis is whether the facts viewed in the
light most favorable to plaintiff show that the state
actor’s conduct violated a federal constitutional or
statutory right.” McClendon v. Story County Sheriffs
Office, 403 F.3d 510, 515 (8th Cir. 2005) (footnote
omitted). “[T]he second step is to ask whether the
(violated) right was ‘clearly established.’” Id. (citation
omitted).
Geitz v. Overall, 137 Fed. Appx. 927 (8th Cir. 2005).
That courts misstate the facts is well known by those
in the legal profession today.
It is hardly a secret that courts misstate facts. Every
lawyer involved in litigation probably can cite several
instances of courts misstating or distorting the facts
in a particular case. To be sure, the extent to which
courts misrepresent facts is hard to measure. Most of
the time the only persons who know about it are the
attorneys who argued the case. And they are unlikely
to criticize the court publicly. To give the court an
opportunity to rectify a material misstatement, the
lawyer may file a motion to reargue the case based
on the court’s mistaken description of the facts. But
it is rare that a court will even acknowledge a
mistake, let alone correct it.
Why do courts misstate facts? The volume of
litigation sometimes may account for a court’s
lackadaisical attitude toward the facts of a case.

22

There are also instances however, in which there is
little doubt that a court has closely examined and
understood the factual record, and then produced a
recitation and interpretation of the facts that not
only is at variance with the record, but appears to
have been deliberately reconstructed to achieve a
particular result.
Bennett L. Gershman,2 Now You See It, Now You
Don’t• Depublication and nonpublication of opinions
raise motive questions, New York State Bar
Association Journal, October 2001, Vol. 73, No. 8.
IV.
The district court erred in removing the
determination of the facts from a jury.
As Fleshner’s First Amended Complaint (D.E. #15),
App., p. 132A-153A,
12-213
13-155 from video
evidence) makes abundantly clear, the district court
determined “facts” that were—and are—clearly
contradicted by the video evidence. By so doing, the district
court invaded the province of the jury. In former times, the
courts did not conduct themselves in such a fashion.
By undertaking to reconcile irretrievably conflicting
findings of the jury, the court, we think, has made
the same error that it correctly attributes to the Ohio
Court of Appeals—it has invaded the province of the
jury under this federal statute. We would avoid such
an intrusion by ordering that the cause be put to
another jury.

Professor Gershman served for four years with the Special State
Prosecutor investigating corruption in the judicial system, and is one of
the nation’s leading experts on prosecutorial misconduct. He is active
on several Bar association committees, and is a frequent pro bono
litigator.
2

23

Gallick v. Baltimore & Ohio R. Co., 372 U.S. 108, 127, 83
S.Ct. 659, 9 L.Ed.2d 618 (1963) (Stewart, J. and Goldberg,
J. dissenting).
The jury first determines the facts, then it applies
the law to those facts. United States v. Gleason, 726
F.2d 385, 388 (8th Cir. 1984). See generally 2 C.
Wright, Federal Practice & Procedure § 485, at 711
(1982) (“The purpose of a charge is to inform the jury
of its function, which is the independent
determination of the facts, and the application of the
law, as given by the court, to the facts found by the
jury.”). Thus, when the judge is no longer deciding
the law that applies to the evidence, but rather is
applying the law to the facts—facts that are
determined after assessing the probative value of
evidence introduced at trial—the judge has invaded
the jury’s province.
United States v. White Horse, 807 F.2d 1426, 1430 (8th Cir.
1986) (emphasis in original).

V.
The district court erred in holding that there were no
Fourth Amendment violations.
The Fourth Amendment, for all practical purposes
regarding vehicles, no longer exists. An Ohio opinion from
2002 summarizes the state of the law on this issue rather
succinctly(TJ1} Terry C. Bowie, Jr. appeals the judgment of
conviction entered by the Marietta Municipal Court
finding him guilty of OMVI and failure to drive
within marked lanes. In his sole assignment of error,
appellant argues that the trial court erred in
refusing to suppress the evidence obtained by
Trooper Roe because the officer lacked a reasonable

24

and articulable suspicion to stop the vehicle. We
reject this contention because even a de minimis
traffic violation provides a legitimate basis for a
traffic stop.
State v. Bowie, 2002-Ohio-3553 (Ohio App. Dist. 7/02/2002).
{^[ 17} Harsha, J., concurring in judgment only*
18} Because I took an oath of office that requires
me to enforce the law as interpreted by the United
States and Ohio Supreme Courts, I’m forced to
concur in this court’s judgment. Nonetheless, here’s
the opinion I'd like to, but ethically can’t, adopt*
{^119} “When Charles Dickens wrote in Oliver Twist
that “The law is an ass, an idiotO”, he was
describing the law in general as it stood in Victorian
England. Alas, his words still resonate today. One
need only peruse the short list of illegal activity that
follows it to confirm that fact:
{^120} “in Arizona adults may not have more than one
missing tooth visible when smiling
{^21} “one cannot shower naked in Florida
{^22} “a man with a moustache cannot kiss a woman
in public in Iowa
{^23} “a woman may not buy a hat without her
husband’s permission in Kentucky

{^J24} “in Massachusetts mourners at a wake cannot
eat more than three sandwiches
{^25} “one-armed piano players must play for free in
Iowa

25

(1(26} “in Nebraska barbers cannot eat onions
between 7 a.m. and 7 p.m.
{1j27} “in California no vehicle without a driver may
exceed 60 mph.”
(1128} “Add Ohio to the list - the practical effect of
today’s decision is that by driving a vehicle in Ohio
you waive the Fourth Amendment. Now, virtually
every driver is subject to being stopped if, over the
course of a ten mile trip to grandma’s, she weaves
once within her own lane or, God forbid, her vehicle
touches the edge marking. The next time you see a
state trooper on the highway, follow that vehicle for
ten miles. Keep track of how often it moves within its
lane of travel or exhibits some other form of “erratic
driving.” Since citizen’s arrest powers are limited to
felony situations, your best bet is to stop, call the
highway patrol dispatcher and report a suspected
traffic offender. Good luck.
(1129} “Beam me up Scotty” before Fagin and the
Artful Dodger kidnap Oliver and the rest of us.”
Id.
In formulating a reasonableness test, one authority statesIt is submitted that for an impoundment of an
arrestee's vehicle to be reasonable under the fourth
amendment, the arresting officer should be required
(i) to advise the arrested operator "that his vehicle
will be taken to a police facility or private storage
facility for safekeeping unless he directs the officer to
dispose of it in some other lawful manner," and (ii)
*432 to comply with any reasonable alternative
disposition requested. Surely, the police should not
be expected to undertake delivery of the auto to some
distant point or to make any other disposition which
26

would be more onerous than having the vehicle
brought to the station. But if the driver asks that his
car be left at the scene and the circumstances are
such that it can be lawfully parked in the vicinity,
then his wishes should be respected.
Wayne R. LaFave, Search and Seizure § 7.3, at 555, 559
(1978)
However, facts still matter.
Determining whether the force used to effect a
particular seizure is “reasonable” under the Fourth
Amendment requires a careful balancing of “‘the
nature and quality of the intrusion on the
individual's Fourth Amendment interests’” against
the countervailing governmental interests at stake.
Id., at 8, quoting United States v. Place, 462 U.S.
696, 703 (1983). Our Fourth Amendment
jurisprudence has long recognized that the right to
make an arrest or investigatory stop necessarily
carries with it the right to use some degree of
physical coercion or threat thereof to effect it. See
Terry v. Ohio, 392 U. S., at 22- 27. Because “[t]he test
of reasonableness under the Fourth Amendment is
not capable of precise definition or mechanical
application,” Bell v. Wolfish, 441 U.S. 520, 559
(1979), however, its proper application requires
careful attention to the facts and circumstances of
each particular case, including the severity of the
crime at issue, whether the suspect poses an
immediate threat to the safety of the officers or
others, and whether he is actively resisting arrest or
attempting to evade arrest by flight. See Tennessee v.
Garner, 471 U. S., at 8-9 (the question is “whether
the totality of the circumstances justifie[s] a
particular sort of. . . seizure”).
Graham v. Connor, 490 U.S. 386, 396, 109 S.Ct. 1865, 104

27

L.Ed.2d 443 (1989).
In this case the district court did not have to
speculate on the facts and circumstances as it is all
apparent of the video evidence. However, the district court
did not use the proper application or careful attention to
the facts as recorded on video evidence.
VI.
The district court erred in denying Petitioner trial by
jury on all remaining issues.
The text of the Seventh Amendment, U.S.
Constitution, is quite plain.
In Suits at common law, where the value in
controversy shall exceed twenty dollars, the right of
trial by jury shall be preserved, and no fact tried by a
jury, shall be otherwise reexamined in any Court of
the United States, than according to the rules of the
common law.
Unfortunately for those who hope to petition their
government for the redress of grievances, the meaning of
the Seventh Amendment has apparently degenerated into
something almost completely meaningless.
For an example of how far the courts have strayed
from the original meaning of the Seventh Amendment,
consider a case from Louisiana in 1959.
The jury found for the defendant. The plaintiff,
Clegg, appealing here, asserts that this resulted from
the unexpected use by the Judge of a jury verdict in
the form of three questions. In proof of it, plaintiff
points out that the Insurer’s defense contented itself
with testimony of a single witness, the truck driver,
who virtually swore the defendant into liability, and
the cross examination of plaintiff’s witnesses, several
of whom were psychiatrists. The Insurer refutes both
the claim of error and the asserted cause of the
28

adverse verdict. On the latter, it says that the jury
rejected the plaintiffs thesis because it was patently
unacceptable to thinking jurors.
The Insurer describes the claim as bizarre. If it is not
that, it is an understatement to call it anything less
than unique.
The Insurer’s truck, southbound on Airline Highway
near Norco, Louisiana, suddenly swerved onto its
right shoulder to avoid hitting school children
alighting from a northbound school bus. The truck
hit and smashed several cars and ran into gasoline
pumps of a roadside filling station causing fire and
widespread destruction. Clegg, of Baton Rouge, was
standing nearby. He was not physically injured. He
was not touched in any way by anything. What
happened to him, he says was that on seeing this
holocaust and the need for someone to rush in to help
rescue victims, he suddenly became overwhelmed by
fear and realized for the first time in his life that he
was not the omnipotent, fearless man his psyche had
envisioned him to be. His post-accident awareness
that this event had destroyed his self-deceptive
image of himself precipitated great emotional and
psychic tensions manifesting themselves as
psychosomatic headaches, pain in legs and neck, a
loss of general interest, a disposition to withdraw
from social and family contacts, and the like.
As it might have appeared to the jury of lay persons,
the medical theory was that the accident had made
Clegg see himself as he really was, not as Clegg had
thought himself to be. In short, the accident had
destroyed the myth. No longer was he the brave
invincible man. Now, as any other, he was a mere
human, with defects and limitations and a faint
heart. It was, so the Insurer argued with plausibility
29

to the jury, the strange case of a defendant being
asked to pay for having helped Clegg by bringing him
back to reality—helping him, as it were, to leave
Mount Olympus to rejoin the other mortals in Baton
Rouge.
To this elusive excursion into the id of Clegg, there
were added many irrefutable earth-bound events
that made it sound all the more strange. At the time
of the accident, Clegg was a TV advertising
salesman. Within a short space of time, he had
changed employment. He became president of a
company, in which he was apparently personally
interested, at a salary over twice as high as he had
previously earned. He bought and sold several pieces
of real estate, had made $25,000 in one trade, and
had purchased and moved into a new $40,000 home.
Within nine months of the accident he had
successfully undertaken a campaign to become
elected a city Councilman of Baton Rouge. The
psychiatrists, acknowledging these external facts,
then reasoned that this was a part of his struggle by
which to recapture his lost self-esteem, and that
while these things were most assuredly being
accomplished, it was being done at further damage to
Clegg.
Clegg v. Hardware Mutual Casualty Co., 264 F.2d 152,154
(5th Cir. 1959).
Note that—from 1791 until at least 1959—even
nonsense such as this was decided by a jury.
[Ultimately, the guarantee of [our] rights is no
stronger than the integrity and fairness of the judge
to whom the trial is entrusted.
Bracy v. Gramley, 81 F.3d 684, 703 (7th Cir. 1996) (dissent)
reversed, 520 U.S. 899, 117 S.Ct. 1793, 138 L.Ed.2nd 97

30

(1997).
VII. The district court erred by not being impartial and
unbiased.
This issue is addressed under 28 U.S.C. 455.
(a)
Any justice, judge, or magistrate judge of the
United States shall disqualify himself in any
proceeding in which his impartiality might
reasonably be questioned.
The test under §455(a) is"whether an objective, disinterested, lay observer
fully informed of the facts underlying the grounds on
which recusal was sought would entertain a
significant doubt about the judge's impartiality."
Parker v. Connors Steel Co., 855 F.2d 1510,1524 (llth Cir.
1988).
The issue has been addressed when neither an
affidavit nor a motion to recuse has been filed in earlier
proceedings. In this case Fleshner had no time to file either
because the issue was not clearly obvious until after the
jury trail.
"It is less clear under our case law whether we may
review a refusal to recuse under section 455(b) when
the argument is raised for the first time on appeal."
United States v. Smith, 210 F.3d 760, 764 (7th Cir.2000)
After review of the many issues addressed in this
appeal any reasonable person would be convinced the judge
was not impartial. Once the rehash of the first summary
judgment was filed a second time and then granted it was
clear the presiding judge was overstepping his authority to
favor the opposing parting.
31

"In determining whether a judge must disqualify
himself under 28 U.S.C. sec. 455(b)(1), the question
is whether a reasonable person would be convinced
the judge was biased."
Hook v.McDade, 89 F.3d350, 355 (7th Cir.1996) (internal
quotation omitted)
The bias and impartiality of a presiding judge can
greatly affect the outcome of the trail as described.
"The entire conduct of the trial from beginning to end
is obviously affected ... by the presence on the bench
of a judge who is not impartial." Fulminante, 499
U.S. at 309-10; accord United States v. Mills, 138
F.3d 928, 938 (llth Cir. 1998)

CONCLUSION
If officers violate departmental policies, procedures
and/or Constitutional rights should they have the right to
qualified immunity?
If judges rewrite the facts of a case and grant
qualified immunity, should that ruling be upheld by the
higher court in an appeal?
Who determines what constitutes a de minimis
injury? A judge? A jury? A healthcare professional?
Are we to return to the days when police could use
rubber hoses to beat on people in order that no marks
would be visible and the police could then claim, “No
injury”?
As we are now witnessing, on the news and across
this country, people are furious with the recent violent
attacks committed by those who are mandated to protect
and serve us.

32

Eric Garner was suspected of selling single cigarettes
from packs without tax stamps and during his arrest he
was put in a choke hold by a New York City police officer
and choked to death.
George Floyd was detained by four officers for using
a counterfeit bill to make a purchase at a store, and for all
we know, Floyd was not even aware it was counterfeit.
Moments later Floyd was murdered by one of the officers’
who drove his knee into Floyd’s neck for several minutes
while handcuffed on the ground. This was despite Floyd’s
assertion that he was not resisting and could not breathe.
Unfortunately, Police Officers know they are protected by
Qualified Immunity, which has legitimized the free use of
excessive force, and willful contravention of laws. Police
Officers should be held to higher standards and should not
be given a free pass when they abuse the law and
constitutional rights of individuals.
Fleshner knows all too well what it’s like to be
attacked by four officers and getting knees driving into his
body. Lucky for him he survived the attack and has spent
the last five years trying to get justice only to find out that
the courts lie just as bad as the out of control officers. It
seems “NO JUSTICE, NO PEACE” rings true!
If the courts are scratching their heads and
wondering why this abuse against its citizens is getting
worse maybe they should look at the legal doctrine called
“Qualified Immunity”, and the several cases it’s been used
on to shield bad officers from the crimes they have
committing. It is obvious from recent events that “Qualified
Immunity” does not serve the public good.
The judicial system has encouraged this kind of
behavior for far too long by using this legal doctrine to
protect those who should be punished. The Supreme Court
MUST put an end to these abusive violations by peace
officers, and the lower courts, or this problem will continue

33

to spiral further out of control.
For the reason set forth above, this petition for writ
of certiorari should be granted.

Respectfully submitted,
Billy D. Fleshner
P.O. Box 84137
Sioux Falls, SD 57118
Pro se Petitioner

34

APPENDIX

